     DOD PILOT PROGRAMS FOR SHIPMENT OF PERSONAL
      PROPERTY - DOD BASELINE COST METHODOLOGY

Report No. D-2001-031                   December 29, 2000




             Office of the Inspector General
                 Department of Defense
  Additional Copies

  To obtain additional copies of this audit report, visit the Inspector General, DoD,
  Home Page at www.dodig.osd.mil or contact the Secondary Reports Distribution
  Unit of the Audit Followup and Technical Support Directorate at (703) 604-8937
  (DSN 664-8937) or fax (703) 604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or
  fax (703) 604-8932. Ideas and requests can also be mailed to:

                    OAIG-AUD (ATTN: AFTS Audit Suggestions)
                     Inspector General, Department of Defense
                        400 Army Navy Drive (Room 801)
                            Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling
  (800) 424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or
  by writing to the Defense Hotline, The Pentagon, Washington, D.C. 20301-1900.
  The identity of each writer and caller is fully protected.




Acronyms
CONUS                 Continental United States
DFAS                  Defense Finance and Accounting Service
DTRS                  Defense Transportation Payment System
MTMC                  Military Traffic Management Command
PPPO                  Personal Property Processing Office
PPSO                  Personal Property Shipping Office
TOPS                  Transportation Operational Personal Property Standard System
USTRANSCOM            U.S. Transportation Command
WHIST                 Worldwide Household Goods Information System for
                        Transportation
                        Office of the Inspector General, DoD
Report No. D-2001-031                                               December 29, 2000
 (Project No. D1999LH-0038.001)
 (formerly Project No. 9LH-5023.01)

         DoD Pilot Programs for Shipment of Personal Property –
                     DoD Baseline Cost Methodology

                                  Executive Summary

Introduction. This audit was requested by the U.S. Transportation Command
(USTRANSCOM). In response to Management Reform Memorandum No. 6,
“Streamlining and Simplifying Member-Arranged Movement of Household Goods,”
June 4, 1997, DoD developed several pilot programs. The DoD personal property
program is a $1.2 billion program that the Military Traffic Management Command
(MTMC) manages for the Military Services, DoD agencies, and the Coast Guard.
MTMC is the single largest customer of the household goods moving industry,
arranging approximately 650,000 shipments annually. This report is the last in a series
of reports on the DoD pilot programs.

Objectives. The overall audit objectives were to evaluate the methodology and
processes used by MTMC to determine the baseline costs for the current DoD Personal
Property Program (DoD Baseline Program); the methodology and processes used to
collect, evaluate, and report transportation and cost data for the MTMC Reengineering
DoD Personal Property Program Pilot (the MTMC Program Pilot); and the
methodology used by the USTRANSCOM to compare and evaluate the DoD Baseline
Program, the MTMC Program Pilot, the DoD Full Service Moving Project, and the
Navy Service Member-Arranged Movement Pilot Program. This report discusses the
first objective as it relates to the methodology and processes used to determine the
direct and indirect baseline costs for the current DoD Baseline Program; and the
remaining portion of the second objective as it relates to the methodology and process
used to collect, evaluate, and report indirect transportation and cost data for the MTMC
Program Pilot. The initial portion of the second objective as it relates to the
methodology and process used to collect, evaluate, and report direct transportation and
cost data for the MTMC Program Pilot was discussed in Inspector General, DoD,
Report No. D-2000-147, June 12, 2000. The third objective, which relates to the
overall USTRANSCOM evaluation plan, is currently under review by the General
Accounting Office.

Results. Attempting to compensate for the lack of historical cost data, MTMC made
commendable efforts to create the framework for rigorous and credible cost
comparisons between alternative household goods transportation approaches. However,
the methodology and processes used to determine direct costs under the DoD Baseline
Program were flawed. As a result, the direct baseline costs developed using the current
MTMC methodology and processes would be of very limited value in cost comparisons
with pilot programs (finding A).
The methodology and processes used by MTMC to determine indirect costs under the
DoD Baseline Program also were flawed. As a result, the indirect baseline costs
developed using the current MTMC methodology and processes are not reliable and,
therefore, do not provide a sound basis for cost comparison (finding B).

Summary of Recommendations. We recommend that the Commander in Chief,
USTRANSCOM, in coordination with the Assistant Deputy Under Secretary of
Defense for Transportation Policy, develop a methodology to constructively calculate
direct baseline costs for real-time shipments made under the respective pilot programs,
and develop a methodology to collect indirect baseline cost information that is regional
and concurrent with the organizations involved under the pilot programs. Alternately,
we recommend termination of the baseline comparison to the pilot programs, and
incorporation of elements currently deemed successful under the pilot programs into the
DoD Baseline Program to provide interim relief to the Service members and their
families.

Management Comments. USTRANSCOM nonconcurred with the recommendation to
develop a methodology to constructively calculate direct baseline costs for real-time
shipments moved under the pilot programs using DoD Baseline Program rates.
USTRANSCOM believes that its direct cost methodology was justified, given the
realities and data limitations of the current personal property system and the added cost
and time to develop and implement an alternative method. USTRANSCOM also
nonconcurred with the recommendation to develop a methodology to collect indirect
baseline cost information that is regional and concurrent with the organizations involved
in the pilot programs. USTRANSCOM stated that its indirect cost methodology was
reasonable and represents only 10 percent of the total program costs. USTRANSCOM
recommended that the audit report be modified to accept its methodologies and to
reflect the final methodologies used. A discussion of management comments is in the
findings section of the report and complete text is in the Management Comments
section.

Audit Response. USTRANSCOM comments on using a constructed cost methodology
and regionalized indirect baseline costs were partially responsive. The Office of
Inspector General, DoD, cannot support the USTRANSCOM methodology and
approach because the relationships between the results from the available partial data
and those from the entire affected populations are unknown. However, as a result of
additional discussions with management, we added an alternative recommendation to
provide another option for consideration. We request that the USTRANSCOM
reconsider its position and provide comments to the final report by January 31, 2001.




                                           ii
Table of Contents

Executive Summary                                        i


Introduction
     Background                                          1
     Objectives                                          3


Findings
     A. Methodology Used to Develop Direct Baseline
         Costs Under the DoD Baseline Program            4
     B. Methodology Used to Develop Indirect Baseline
         Costs Under the DoD Baseline Program           12


Appendixes
     A. Audit Process
         Scope and Methodology                          17
         Prior Coverage                                 18
     B. Report Distribution                             20

Management Comments
     United States Transportation Command               23
Background
    This audit was requested by the U.S. Transportation Command
    (USTRANSCOM). This is the last in a series of reports involving DoD
    transportation management initiatives in regard to Management Reform
    Memorandum No. 6, “Streamlining and Simplifying Member-Arranged
    Movement of Household Goods,” June 4, 1997.

    DoD currently uses commercial transportation contractors (carriers) to provide
    movement and storage services of personal property for the Military Services,
    DoD agencies, and the Coast Guard. Frequently, the process results in
    unsatisfactory service for military members and their families, causing increased
    levels of stress, frustration, and dissatisfaction with military life. In June 1994,
    USTRANSCOM, recognizing the poor quality of personal property movement
    and storage services that military members receive, tasked the Military Traffic
    Management Command (MTMC) to reengineer the DoD personal property
    program. In the summer of 1996, a MTMC survey of 3,000 moves revealed
    that more than 60 percent of shipments suffered loss or damage.

    Military Traffic Management Command. MTMC is a jointly staffed Army
    command and a component of USTRANSCOM. MTMC is the DoD surface
    traffic manager and the common-user single port manager for water terminals.
    MTMC accomplishes its mission by providing global traffic management,
    including the movement of personal property shipments for DoD-sponsored and
    Coast Guard personnel.

    DoD Personal Property Program. DoD expends $1.2 billion annually on its
    personal property program. MTMC manages the program for the Military
    Services, DoD agencies, and the Coast Guard. MTMC is the single largest
    customer of the household goods moving industry, arranging for approximately
    650,000 shipments annually. The policies that MTMC implements govern the
    personal property movement and storage services for DoD and Coast Guard
    personnel and their families, impacting their quality of life.

    Over the years, the DoD personal property program has undergone a number of
    isolated changes that have created a complex, rate-driven system. DoD uses
    more than 1,200 carriers to provide movement and storage services. Managing
    the use of so many carriers requires processes to qualify carriers, solicit rates,
    distribute traffic, evaluate carrier performance, pay bills, and settle claims.

    Management Reform Memorandum No. 6. On June 4, 1997, the Under
    Secretary of Defense (Comptroller) issued Management Reform
    Memorandum No. 6, “Streamlining and Simplifying Member-Arranged
    Movement of Household Goods.” The Under Secretary asked the Commander
    in Chief, USTRANSCOM, in coordination with the Assistant Deputy Under
    Secretary of Defense (Transportation Policy), to develop and implement a plan
    that would streamline and simplify policies and procedures for managing
    member-arranged movement of household goods. The plan was to include
    business-process changes that could be implemented immediately and to identify
    any long-term changes that may require legislation. Subsequent to that



                                         1
direction, DoD embarked on several pilot programs to test different approaches
for DoD personal property programs. A description of each pilot program
follows:

        Military Traffic Management Command Program Pilot. On
January 11, 1999, MTMC began a pilot program to test a new acquisition
process and operational concept for procurement of personal property
transportation services that incorporate commercial business practices and
standards of service. Like commercial companies, MTMC awarded longer term
contracts for the pilot program to 43 carriers that proposed the best service and
not the lowest cost. MTMC monitored carrier performance through customer
satisfaction surveys. The contracts were awarded for a 1-year base period, with
two 1-year option periods. Services provided under the MTMC Reengineering
DoD Personal Property Program Pilot (the MTMC Program Pilot) that military
members and their families do not enjoy under the current DoD personal
property program include better liability coverage, toll free telephone numbers
for resolving customer problems and tracking shipments, and direct contact
between carriers and military members for arranging shipments and resolving
claims.

The MTMC Program Pilot consists of 50 percent of the eligible traffic moving
from Florida, North Carolina, and South Carolina destined to 13 continental
United States (CONUS) regions and 5 European regions. The MTMC program
pilot was to test approximately 18,500 shipments over a 12-month period from
January 11, 1999, through January 10, 2000. However, actual shipments were
about 24 percent of the volume expected. The reasons for the low volume was
attributable to: not enough eligible members within the criteria of the MTMC
program pilot, and the lack of support by the personal property shipping offices
(PPSO) for the pilot program. The MTMC Program Pilot is continuing under
the first 1-year option period.

        DoD Full Service Moving Project. The Assistant Deputy Under
Secretary of Defense (Transportation Policy) is leading the DoD Full Service
Moving Project and in September 2000 awarded a contract for implementation
of the pilot in January 2001. The pilot is expected to handle about 45,000
shipments made from the National Capital Region, Georgia, and North Dakota
to locations within CONUS. To achieve economies of scale through greater
volume, the pilot will serve all of the Military Services. In this pilot, a joint
service team purchases move-management services through a full-service
relocation package. The package provides point-to-point move management to
military personnel, single point of contact, elimination of the current in-house
processes, and optional relocation services such as finding or selling a home.

        Service Member-Arranged Movement Pilot. The Service
Member-Arranged Movement Pilot is a Navy-sponsored voluntary pilot
program. The pilot began in January 1998 and features payment for services by
credit card, involves Service members in the carrier-selection process, and is
limited to shipments over 3,000 pounds. Approximately 200 shipments are
handled annually through this pilot. This pilot will evaluate moves made from
the Jacksonville, Florida; New London, Connecticut; Norfolk, Virginia;




                                     2
     Pensacola, Florida; Puget Sound, Washington; and San Diego, California,
     areas. The pilot offers alternatives to the Service member and allows direct
     involvement in the planning and execution phase of the move by the Service
     member.

     Pilot Program Evaluation. USTRANSCOM is in the process of developing a
     comprehensive plan to evaluate the pilot programs. As part of the evaluation,
     USTRANSCOM will compare direct and indirect costs of the baseline and pilot
     programs. USTRANSCOM directed MTMC to develop a direct and indirect
     baseline cost for the current DoD personal property programs (DoD Baseline
     Program).


Objectives
     The overall audit objectives were to evaluate the methodology and processes
     used by MTMC to determine the baseline costs for the current DoD Baseline
     Program; the methodology and processes used to collect, evaluate, and report
     transportation and cost data for the MTMC Program Pilot; and the methodology
     used by USTRANSCOM to compare and evaluate the DoD Baseline Program,
     the MTMC Program Pilot, the DoD Full Service Moving Project, and the Navy
     Service Member-Arranged Movement Pilot Program. This report discusses the
     first objective as it relates to the methodology and processes used to determine
     the direct and indirect baseline costs for the DoD Baseline Program; and the
     remaining portion of the second objective as it relates to the methodology and
     process used to collect, evaluate, and report indirect transportation and cost data
     for the MTMC Program Pilot. The initial portion of the second objective as it
     relates to the methodology and process used to collect, evaluate, and report
     direct transportation and cost data for the MTMC Program Pilot was discussed
     in Inspector General, DoD, Report No. D-2000-147, June 12, 2000. The third
     objective, which relates to the overall USTRANSCOM evaluation plan, is
     currently under review by the General Accounting Office. See Appendix A for
     a discussion of the audit scope and methodology and for prior coverage.




                                          3
           A. Methodology Used to Develop Direct
              Baseline Costs Under the DoD
              Baseline Program
           The methodology and processes used by MTMC to determine direct
           costs under the DoD Baseline Program were flawed. This occurred
           because MTMC used incomplete, inconsistent, and outdated direct cost
           information. As a result, the direct baseline costs developed using the
           current MTMC methodology and processes are not reliable and,
           therefore, would be of very limited value in making cost comparisons
           with pilot programs.


Direct Cost Data Sources
    Direct costs are the actual costs for movement of personal property shipments
    and include transportation, storage, and accessorial service costs. MTMC
    developed direct cost data by using the Activity Based Costing study, “Business
    Process Reengineering Support to MTMC for Administering the Personal
    Property Programs,” December 28, 1995. Under the DoD Baseline Program,
    cost information was also extracted from several databases.

    Shipment data for movement of personal property shipments were extracted
    from the Transportation Operational Personal Property Standard System (TOPS)
    and the TOPS History [formerly named the Worldwide Household Goods
    Information System for Transportation (WHIST)]. Financial information
    regarding payments for personal property shipments was extracted from the
    Defense Transportation Payment System (DTRS) and matched with
    corresponding shipment information in the TOPS and TOPS History.

    Transportation Operational Personal Property Standard System. The TOPS
    is an automated transportation system with a distributed database architecture.
    Each PPSO has its own database not accessible by other PPSOs. The TOPS
    Program Management Office has dial-in access to each PPSO database to
    provide software and hardware problem assistance, data reference table updates,
    and other activities as necessary. Shipment data is exchanged between PPSOs
    and the TOPS History through a switcher at scheduled times after duty hours.
    Data may take 24 hours or more to move from one PPSO to another and the
    TOPS History.

    Transportation Operational Personal Property Standard System History.
    The TOPS History is the centralized data system that links TOPS and DTRS. It
    is used to collect and store personal property shipment information and then
    shares that information between TOPS and DTRS. TOPS History also
    maintains carrier rate, shipment, and payment information.

    Defense Transportation Payment System. The DTRS was developed to
    receive and process invoices from commercial carriers for the movement of
    personal property and freight. DTRS electronically receives shipment
    information such as government bills of lading data, issue dates, pickup and


                                        4
    delivery information, consignee, and origin and destination data from the TOPS
    History. This information is used to match corresponding shipment information
    provided by the commercial carriers from an electronic data interchange invoice
    to ensure payment was authorized. The actual payment history is then
    electronically submitted to the TOPS History.


Initial MTMC Baseline Direct Cost Methodology
    The methodology and processes initially used by MTMC to determine direct
    costs under the DoD Baseline Program were flawed because MTMC used
    incomplete, inconsistent, and outdated direct cost information.

    MTMC initially relied on cost summaries compiled from actual FY 1994 data
    collected for the Activity Based Costing study completed in December 1995.
    The rationale for using the study was to avoid duplication of effort and eliminate
    the need to collect new data. However, the raw data to support those cost
    summaries were incomplete; therefore, the conclusions of the study could not be
    adequately evaluated. The FY 1994 direct costs for transportation, storage, and
    accessorial service charges were about $1.2 billion. However, the number of
    shipments made in FY 1994 was not available. Therefore, the overall average
    direct cost per shipment could not be determined using solely FY 1994 shipment
    and costs data.

    Because FY 1994 data was incomplete, the initial MTMC methodology included
    inflating the FY 1994 direct cost data using Census Bureau inflation factors to
    FY 1998 dollars and then using actual FY 1998 shipment numbers to determine
    the average direct cost per shipment. We concluded that the use of FY 1994
    direct cost data with FY 1998 shipment volume data to calculate an average
    baseline direct cost was unacceptable because of the inconsistent relationship
    among the data components and because the data was outdated. In addition,
    MTMC did not consider the effect of using nonconcurrent global baseline
    information to compare with regional pilot program information, and the effect
    of shipment type on the overall average cost.


Revised MTMC Baseline Direct Cost Methodology
    The revised methodology and processes used by MTMC to determine direct
    costs under the DoD Baseline Program were also flawed because MTMC used
    incomplete, inconsistent and outdated data.

    To address concerns involving the use of the FY 1994 data, MTMC revised its
    initial baseline direct cost methodology. MTMC decided to stratify information
    by shipment type and extract more recent shipment and direct cost information
    from the TOPS, TOPS History, and DTRS databases.

    Stratification by Shipment Type. The MTMC revised methodology proposed
    that direct costs be stratified by shipment type to provide a more accurate means
    of comparing the baseline costs with the various pilot program costs. An


                                        5
average cost for each shipment type would be computed for each Military
Service and the Coast Guard. The types that would be used included CONUS
interstate household goods, intrastate household goods, unaccompanied baggage,
mobile home, boat, and do-it-yourself-move shipments, international air
household goods, air unaccompanied baggage, ocean household goods, and
ocean unaccompanied baggage shipments. The baseline average cost for each
shipment type would be compared with the corresponding shipment types of the
pilot programs. We concluded that this was a logical approach, provided
representative data were available to calculate baseline averages for each
shipment type.

Extraction of More Recent Shipment and Direct Cost Information. MTMC
requested the direct cost data from the Defense Finance and Accounting Service
(DFAS) and the Military Services for FY 1995, FY 1996, and FY 1997.
However, none of the Military Services could provide data for FY 1995; the
Army, the Air Force, and Coast Guard could not provide data for FY 1996; the
Marine Corps could not provide any data. Based on the partial data obtained,
MTMC calculated the average cost per shipment by averaging information for
FY 1995, FY 1996, and FY 1997. However, we determined that this average
cost would not be useful to compare with other pilot programs because the
shipment type mix likely is different among the Military Services and Coast
Guard and because the data MTMC used to develop direct costs were
incomplete and inconsistent.

Transportation Operational Personal Property Standard System History
Database. Through contacts with DFAS, TOPS, and the TOPS History
program office, MTMC determined more accurate information was available
through the TOPS History database. The TOPS History database, however,
was missing approximately one-third of the total DoD shipment data. The
TOPS History database also did not have data on shipments that did not
originate at TOPS-fielded sites. Further, the Navy stopped transmitting
shipment data to the TOPS History database during the last quarter of FY 1998
to address system issues. Also, most of the Coast Guard shipment data were not
included in the TOPS History database. Regardless, MTMC believed that an
adequate amount of shipment data was available in the TOPS History database
for most of the shipment types to provide cost averages with a high degree of
statistical confidence. However, our position is that quantity of shipment data
alone does not ensure its representativeness. The relationships for which data
were available could not be established.

Several issues needed to be resolved. First, the TOPS History database records
did not include all cost components for some shipment types, such as packaging
and crating cost for shipments moved under the direct procurement method.
Second, a sufficient amount of shipment data did not exist in the TOPS History
database to determine the cost to move a mobile home, boat, or conduct a
do-it-yourself move. Third, a sufficient amount of Coast Guard shipment data
was not present in the TOPS History database to determine average shipment
costs. We concluded that the data from this approach were incomplete,
inconsistent, and outdated.

In a meeting on March 16, 2000, MTMC stated to us that the TOPS History
database was the only practical source of information that could be used to
provide estimates of transportation costs using a stratified statistical sampling


                                     6
methodology. MTMC believed that the TOPS History database could be used
to develop costs for the current DoD Baseline Program.

MTMC extracted 453,759 transportation shipment records from the TOPS
History database for FY 1998. MTMC then contacted DFAS-Indianapolis to
obtain transportation payment records that could be used to compare to the
records obtained from the TOPS History database. DFAS-Indianapolis provided
approximately 650,000 transportation payment records for FY 1998. MTMC
revealed that there was a discrepancy between the shipment and payment
records because the payment records obtained from DFAS-Indianapolis
represented payments made in FY 1998, but not necessarily shipments made in
FY 1998. In a subsequent meeting, MTMC stated that the TOPS History
database contained 479,789 records for FY 1998, while DFAS made payments
on 612,616 records for FY 1998.

Upon examining the DFAS extract, MTMC reduced the 612,616 DFAS records
to 479,789 by matching the DFAS records to the TOPS History. The 479,789
matching records were further reduced to 240,869 records by deleting 151,559
records with missing information; 2,151 records with duplicate government bills
of lading information; and 85,210 records that were out-of-scope of the pilot
program comparison. Regardless, the figures are not comparable because
DFAS could not specifically identify the shipments made during FY 1998.

        Determining Total Shipments and Costs. In a meeting on April 3,
2000, MTMC identified to us additional discrepancies in the extracted data.
MTMC stated that there was a substantial difference between the FY 1997 and
FY 1998 payment records from DFAS-Indianapolis. The total FY 1997 records
were 385,870 with a cost of about $948 million. The total FY 1998 records
were 514,232 with a cost of about $1 billion. DFAS-Indianapolis officials
stated that the difference in records was caused by a backlog in payments for
shipments and suggested MTMC average the records for FY 1997 and FY 1998
to provide a more accurate estimate for total shipments for FY 1998. MTMC
averaged the total shipments for FY 1997 and FY 1998 and calculated average
shipments for FY 1998 to be 450,051 with a cost of about $998 million. While
450,051 is the computed average of 385,870 and 514,232, $998 million is not
the computed average of $948 million and about $1 billion.

MTMC stated that the Marine Corps provided a cost figure for FY 1998 but
was unable to provide the number of shipments for FY 1998. The Marine
Corps could not separate the supplemental government bills of lading from the
original government bills of lading. MTMC calculated the total shipments for
the Marine Corps in FY 1998 to be 37,887 by dividing the cost per shipment
from other Military Services ($2,313) into the Marine Corps total cost of
$88 million for FY 1998.

MTMC then calculated the total number of shipments and cost for FY 1998.
The final computations by MTMC included taking the average shipments
(450,051) for FY 1998 as calculated by MTMC; adding the total shipments
(114,127+10,551) from DFAS-Norfolk shipments paid by the DFAS location
and the Coast Guard for FY 1998; and adding the estimated Marine Corps
shipments (37,887) for FY 1998. As a result, MTMC calculated the total
number of shipments for FY 1998 to be 612,616 and the total cost to be about


                                   7
    $1.4 billion. MTMC stated that it was going to calculate the average direct cost
    by dividing the $1.4 billion by 612,616. MTMC then planned to calculate the
    total direct cost by adding extra charges not in the TOPS History such as, the
    Air Force Mobility Command cost, Military Sealift Command compact charges,
    direct procurement method packing and crating charges, Do-It-Yourself Move
    shipment costs, and nontemporary storage charges to the $1.4 billion. Then, the
    baseline average cost would be calculated by shipment type and service.

    We do not believe this approach is reasonable. The information on shipment
    volume and types, and direct cost components was incomplete, inconsistent, and
    outdated and not identifiable to a specific period of time. Therefore, the
    relationship between direct costs, shipment types, and Military Services are
    likely different and not representative to compare with the pilot programs.


Summary
    In summary, MTMC made commendable efforts to create the framework for
    rigorous and credible cost comparisons between alternative household goods
    transportation approaches. However, we concluded the methodology used by
    MTMC to determine the direct baseline costs was flawed. Information and
    processes used to calculate the average direct costs were incomplete,
    inconsistent, and outdated. As a result, the direct baseline costs developed by
    MTMC are not reliable and, therefore, of very limited value in making cost
    comparisons with pilot programs.

    To improve the methodology, we believe the baseline direct costs should be
    constructively calculated using DoD Baseline Program rates. The actual cost of
    each shipment under each pilot program should be compared to a baseline cost
    calculated as though the shipment had moved under the DoD Baseline Program.
    This approach would require application of various modeling and benchmarking
    techniques and would result in additional costs and delays, but would be a more
    reliable and defendable approach to support a comparison with the pilot
    programs. However, a more logical and productive option would be for
    management to terminate the comparison of the baseline to pilot programs,
    propose program changes now on a nonanalytical, executive-decision basis by
    incorporating elements currently deemed successful under the pilot programs
    into the DoD Baseline Program to provide interim relief to Service members
    and their families, while implementing the pilot programs. Such proposals
    would be based on the subjective accumulation of information provided by
    program area experts, indicators from available partial data, and other sources
    deemed appropriate.


Management Comments on the Finding and Audit Response
    U.S. Transportation Command Comments. USTRANSCOM did not concur
    with the finding. USTRANSCOM stated that the MTMC methodology used
    actual historic shipments to develop baseline average current program costs by
    shipment type and by Service and provided in its management comments,
    starting on page 22, a detailed description of that methodology.


                                        8
    USTRANSCOM stated that it developed direct costs from a database with some
    missing records but actions were taken to account for missing information,
    eliminate unreliable records, and assess comprehensiveness of the database.
    USTRANSCOM also stated that the results were validated by Service
    disbursement and budget record comparison and reviewed and supported by the
    Services. USTRANSCOM concluded that its direct costs methodologies were
    justified given the realities and data limitations of the current personal property
    systems and the added cost and time to develop and implement an alternative
    method.

    Audit Response. USTRANSCOM comments are not fully responsive because
    no new information was included to justify a change to our audit position. As
    discussed under the heading “Revised MTMC Baseline Direct Cost
    Methodology” beginning on page 5 of this report, we reviewed the revised
    MTMC baseline direct methodology and processes used to determine direct
    costs under the DoD Baseline Program and concluded that MTMC used
    incomplete, inconsistent, and outdated direct cost information. Management
    comments and additional information obtained during subsequent discussions
    with management representatives did not provide additional data that would
    justify a change in our audit position. We request that USTRANCOM provide
    comments on the final report.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments and
    additional discussions, we added Recommendation A.2. to provide another
    option for consideration.

    A. We recommend that the Commander in Chief, U.S. Transportation
    Command, in coordination with the Assistant Deputy Under Secretary of
    Defense (Transportation Policy):

            1. Develop a methodology to constructively calculate direct baseline
    costs for real-time shipments moved under the pilot programs using DoD
    Baseline Program rates, or

            2. Terminate the comparison of the baseline to pilot programs,
    incorporate elements currently deemed successful under the pilot programs
    into the DoD Baseline Program to provide interim relief to Service members
    and their families, and gradually implement the pilot programs. Further,
    collect accurate, complete, consistent, and current transportation and cost
    data from reliable data systems to be used to further evaluate the efficiency
    and effectiveness of newly implemented programs.

    USTRANSCOM Comments. USTRANSCOM did not concur with the
    recommendation to develop a methodology to constructively calculate direct
    baseline costs for real-time shipments moved under the pilot programs using
    DoD Baseline Program rates. USTRANSCOM stated that constructing costs
    from a shipment that moved under the pilot program as if it moved under the


                                         9
current program introduces numerous assumptions and variability.
USTRANSCOM asserted examples of these assumptions as carrier and shipment
choice; costing of domestic packing and unpacking; nonexistent rates for mobile
homes, boats, and other one-time-only shipments; and claims payment.
USTRANSCOM stated that the constructive alternative approach was not
detailed or demonstrated to be feasible and that it has been unable to find a
viable alternative to its current approach.

Audit Response. USTRANSCOM comments were not fully responsive because
no new information was included to justify a change in our audit position. As
explained under the heading “Revised MTMC Baseline Direct Cost
Methodology” beginning on page 5 of this report, the revised MTMC
methodology and processes used to develop the direct baseline costs were not
reliable and are unacceptable to support comparisons with the pilot programs.

We agree with some of the analyses performed by MTMC on the revised direct
cost data. Specifically, we support their work in locating and removing
unusable records from the TOPS History. The MTMC procedures for
identifying records with missing or obviously incorrect information in critical
fields and for identifying records out of scope for this analysis are adequate.
However, we cannot support the MTMC attempts to generalize results from the
partial available data to the entire population of Service member moves that
would be affected by program changes. In particular, treating the partial data as
though it constituted a random sample and constructing statistical confidence
intervals based on that partial data is invalid and produces meaningless results.

Our recommendation to constructively calculate direct baseline costs is a valid
quantitative approach that would require application of various modeling and
benchmarking techniques. Our recommended approach would result in
additional costs and delays but would be a more reliable and defendable
approach to support a comparison with the pilot programs. If that alternative is
not acceptable to management, we believe there are several available options:

       •   Management proceeds with the pilot program comparison based on
           partial data as in its current baseline methodology. However, we
           cannot support this approach because the relationships between the
           results from the available data and those from the entire affected
           population are unknown.

       •   Management develops a new methodology to collect accurate,
           complete, consistent, current, and representative direct cost data for a
           period of time and proceeds with the analysis of the new baseline
           data in comparison with the pilot programs. The approach would
           require resources and time to set up adequate data collection
           procedures and systems and as Recommendation A.1. would
           postpone the analysis until the end of the data collection period.

       •   Management terminates the comparison of the baseline to the pilot
           programs, and proposes program changes now on a nonanalytic,
           executive-decision basis as discussed in Recommendation A.2. Such
           proposals would be based on the subjective accumulation of
           information provided by program area experts, indicators from the



                                    10
          available partial data, and other sources deemed appropriate. The
          results of the accumulation would be qualitative rather than
          quantitative.

We believe the most logical and productive option would be the latter.
Management could incorporate elements deemed successful from the pilot
programs into the DoD Baseline Program. Although temporary, the option
would provide interim relief to the Service members and their families while
gradual implementation of the pilot programs proceed. Implementation of the
pilot programs on a gradual basis would allow further evaluation of the
effectiveness and efficiency of the new programs, and avoid further unnecessary
costs to develop a baseline. The MTMC Program Pilot has an established
methodology and data systems online to capture the necessary transportation and
cost data to further evaluate the program. The Full Service Move Program
methodology and data systems are under development and near implementation.
We request that the Commander in Chief, U.S. Transportation Command, in
coordination with the Assistant Deputy Under Secretary of Defense
(Transportation Policy) consider this position and provide comments on the final
report.




                                   11
                    B. Methodology Used to Develop
                       Indirect Baseline Costs Under the
                       DoD Baseline Program
                    The methodology and processes used by MTMC to determine indirect
                    costs under the DoD Baseline Program were flawed. This occurred
                    because MTMC used incomplete, inconsistent, and outdated indirect cost
                    information. As a result, the indirect baseline costs developed using the
                    current MTMC methodology and processes are not reliable and,
                    therefore, unacceptable to support comparison with pilot programs.


Indirect Cost Data Source
           Indirect cost is the management cost of the personal property program. Indirect
           costs include the cost associated with military, civilian, and contracted
           personnel, facilities, equipment, consumables, and miscellaneous functions at
           Headquarters MTMC, the PPSOs, Personal Property Processing Offices1
           (PPPOs), of the Services and DFAS resource costs. MTMC developed indirect
           cost data by using the Activity Based Costing study, “Business Process
           Reengineering Support to MTMC for Administering the Personal Property
           Program,” December 28, 1995. The FY 1994 indirect costs were about
           $351 million.


MTMC Indirect Baseline Cost Methodology
           The methodology and processes initially used by MTMC to determine indirect
           costs under the DoD Baseline Program were flawed because MTMC used
           incomplete, inconsistent, and outdated indirect cost information.

           Activity Based Costing Study. MTMC developed the indirect baseline cost
           using the 1995 Activity Based Costing study. In 1995, MTMC began the study
           of indirect costs by surveying a representative sample of small, medium, large,
           and extra large PPSOs and PPPOs from each Military Service. MTMC also
           surveyed MTMC headquarters, other Military Services headquarters, claim
           offices, and finance offices. MTMC attempted to capture costs associated with
           the military, civilian, and contracted personnel, facilities, equipment,
           consumables, and miscellaneous functions.

           The initial MTMC methodology included inflating the FY 1994 indirect cost
           data using Census Bureau inflation factors to FY 1998 dollars. MTMC also
           added additional costs to the FY 1994 amounts, which were not included in the


1
    A personal property processing office is an activity that performs counseling and prepares the
    application for shipment and/or storage of a member's personal property. The application is then
    forwarded to a PPSO for booking, and shipment.



                                                     12
    costing study. The costs not included in the initial Activity Base Costing study
    were DFAS payment processing costs, FY 1998 TOPS, and FY 1998 TOPS
    History operations and maintenance costs.

    MTMC Data Call. MTMC did not effectively update the figures in the costing
    study to include force reduction that occurred during the period from FY 1995
    through FY 1998. In response to our concern, MTMC issued a data call on
    December 23, 1999, to the Military Services to determine the number of PPSOs
    and PPPOs that were still operating in FY 1999. MTMC also issued a data call
    on January 7, 2000, to the Military Services to provide claims data for FY 1997
    and FY 1998. The original staffing data supplied by the Military Services and
    used in the costing study were returned to the Military Services, and the
    Military Services were asked to update any changes in the data. However,
    MTMC did not issue specific instructions to the Military Services on how to
    collect the data or update the costing study. Specific instructions were necessary
    to ensure complete and relevant data were reported consistently by all Military
    Services.

    The methodology was incomplete because not all indirect cost components were
    updated. Only information concerning military, civilian, and contract personnel
    and claims information was requested. MTMC planned to calculate a
    percentage change factor between FY 1995 and FY 1999 for these cost
    components and then apply the change factor to other relevant cost components.
    Therefore, the calculation of the average indirect baseline cost used shipment
    volume and indirect cost information that was not for a specific period of time.
    As a result, the indirect baseline cost would not be comparable to pilot programs
    because of the inconsistent relationship between shipment volume and type and
    indirect cost data.

    Indirect Cost Calculation. The total number of personal property shipments
    was not available for FY 1994. To calculate average indirect cost per shipment,
    MTMC divided the inflated 1994 cost amount it had calculated by the MTMC
    calculated number of FY 1998 shipments.

    As with our conclusions on direct costs, we believe that by trying to determine
    the indirect baseline costs using incomplete and outdated information will only
    add to already current inconsistencies and would not be defendable in an
    evaluation of the overall pilot programs. Raw data was not available to support
    FY 1994 summary data. Shipment volume for FY 1994 was not captured. The
    collection process was not fully documented to ensure data consistency among
    the Military Services. In addition, the effect of force reductions between
    FY 1994 and FY 1998 was not reflected in adjusting FY 1994 costs to FY 1998
    dollars. Further, the data were outdated and not concurrent with the ongoing
    pilot program data. Therefore, indirect costs developed by MTMC were
    incomplete and unreliable.


MTMC Program Pilot Indirect Cost Methodology
    We did not complete our evaluation of the methodology and processes used to
    collect, evaluate, and report indirect transportation and cost data for the MTMC


                                        13
    Program Pilot as stated in the objectives because the methodology had not been
    finalized. However, implementing our recommendation to finding B would
    make such an evaluation unnecessary because MTMC Program Pilot data would
    be collected concurrently with the DoD Baseline Program.


Summary
    In summary, the methodology used by MTMC to determine the indirect baseline
    costs was flawed. Information and processes used to calculate the average
    indirect costs were incomplete, inconsistent, and outdated.

    To improve the methodology, we believe actual indirect baseline cost data
    should be collected by those organizations directly involved in the shipment of
    personal property under the respective pilot programs. For comparison
    purposes, the total actual indirect costs should be adjusted to reflect the effect on
    actual costs as though organization operations were totally under the MTMC
    Program Pilot and the Service Member-Arranged Movement Pilot. For
    organizations involved in the DoD Full Service Moving Project, the most recent
    indirect cost data for those functions that were contracted out would have to be
    determined. As is the case with our recommendation related to the direct cost
    baseline, we believe the analytical foundation of the pilot program initiative
    could be greatly enhanced. However, as discussed in Finding A, a more logical
    and productive option would be for management to terminate the comparison of
    the baseline to pilot programs, propose program changes now on a
    nonanalytical, executive-decision basis by incorporating elements currently
    deemed successful under the pilot programs into the DoD Baseline Program to
    provide interim relief to Service members and their families, while
    implementing the pilot programs. Such proposals would be based on the
    subjective accumulation of information provided by program area experts,
    indicators from available partial data, and other sources deemed appropriate.


Management Comments on the Finding and Audit Response
    United States Transportation Command Comments. USTRANSCOM did
    not concur with the finding that it used incomplete, inconsistent, and outdated
    information to develop indirect baseline costs under the DoD baseline program
    or that the methodology and process were flawed. USTRANSCOM stated that
    MTMC updated a previous activity based costing study published in FY 1995
    with a data call to the Services to update the labor cost information.
    USTRANSCOM provided in its management comments beginning on page 24 a
    detailed description of its indirect cost methodology. USTRANSCOM
    concluded that its indirect cost methodology was reasonable and represents only
    10 percent of the total program costs.

    Audit Response. USTRANSCOM comments are not fully responsive. As
    discussed under the heading “MTMC Indirect Baseline Cost Methodology”
    beginning on page 12 of this report, we reviewed the MTMC baseline indirect
    methodology and processes used to determine indirect costs under the DoD
    Baseline Program and concluded that MTMC used incomplete, inconsistent, and


                                         14
    outdated indirect cost information. Management comments and additional
    information obtained during subsequent discussions with management
    representatives did not provide additional data that would justify a change in our
    audit position. We request that USTRANCOM provide comments on the final
    report.


Recommendations, Management Comments, and Audit
  Response
    Revised Recommendation. As a result of management comments and
    additional discussions with management, we added Recommendation B.2. to
    provide management with another option for consideration.

    B. We recommend that the Commander in Chief, U.S. Transportation
    Command, in coordination with the Assistant Deputy Under Secretary of
    Defense (Transportation Policy):

           1. Develop a methodology to collect indirect baseline cost
    information that is regional and concurrent with the organizations involved
    in the pilot programs, or

           2. Terminate the comparison of the baseline to the pilot programs,
    incorporate elements currently deemed successful under the pilot programs
    into the DoD Baseline Program, as discussed in Recommendation A.2.,
    thereby eliminating the need to determine an indirect baseline under the
    DoD Baseline Program.

    USTRANSCOM Comments. USTRANSCOM did not concur with the
    recommendation to develop a methodology to collect indirect baseline cost
    information that is regional and concurrent with the organizations involved in
    pilot programs. USTRANSCOM stated that using a regionalized indirect
    baseline cost would not be consistent with DOD Personal Property practices and
    that indirect costs represent only 10 percent of the total program cost.
    USTRANSCOM stated that approximately one-half of the indirect costs are
    program costs that cannot be attributed to individual shipments, including
    MTMC headquarters, Service headquarters, Service finance offices, and Service
    claims office costs. USTRANSCOM also stated that shipping office costs that
    can be associated with processing individual shipments usually occur in multiple
    regions. USTRANSCOM believes that MTMC used a reasonable approach in
    its direction to MTMC to use the previous activity based costing study published
    in FY 1995, with a data call to the Services to update the labor cost information.

    Audit Response. USTRANSCOM comments are not fully responsive because
    no new information was included to justify a change in our audit position. As
    discussed under the heading “MTMC Indirect Baseline Cost Methodology”
    beginning on page 12 of this report, MTMC methodology and processes used to
    develop the indirect baseline costs were not reliable and are unacceptable to
    support comparisons with pilot programs. However, as a result of additional
    discussions with management, we have added an alternative recommendation to



                                        15
provide another option for USTRANSCOM consideration. We request that
USTRANSCOM reconsider its position and provide comments on the final
report.




                               16
Appendix A. Audit Process
    This is the last in a series of reports being issued by the Inspector General,
    DoD, in accordance with an informal partnership between the DoD
    transportation community and the Office of the Inspector General, DoD, to help
    ensure the success of the initiatives related to Management Reform
    Memorandum No. 6, “Streamlining and Simplifying Member-Arranged
    Movement of Household Goods.”


Scope and Methodology
    We reviewed and evaluated the processes used to determine the direct and
    indirect baseline costs for the current DoD Baseline Program. We met with
    personnel who were personal property focal points for USTRANSCOM,
    MTMC, and DoD contractors to obtain and assess the processes used to
    determine the baseline costs. We also met with representatives of the General
    Accounting Office, the Assistant Deputy Under Secretary of Defense for
    Transportation Policy, and consulted with the Technical Director, Quantitative
    Methods Division, Office of the Assistant Inspector General for Audit, DoD.
    We reviewed briefing charts on the personal property pilot program evaluation
    by USTRANSCOM, the DoD personal property pilot program, and the MTMC
    pilot program prepared by MTMC, and briefing charts on the DoD Full Service
    Moving Project by the Assistant Deputy Under Secretary of Defense for
    Transportation Policy. We reviewed MTMC initial and revised methodology
    for determining direct and indirect cost for the DoD Baseline Program covering
    the periods FY 1994 through FY 1998. We reviewed MTMC data calls to the
    Military Services on December 23, 1999 and January 7, 2000, and the Military
    Services response to the data calls.

    DoD-Wide Corporate Level Coverage. In response to the Government
    Performance and Results Act, the Secretary of Defense annually establishes
    DoD-wide corporate level goals, subordinate performance goals, and
    performance measures. This report pertains to achievement of the following
    goal, subordinate performance goal, and performance measures:

           FY 2000 DoD Corporate Level Goal 2: Prepare now for an uncertain
           future by pursuing a focused modernization effort that maintains U.S.
           qualitative superiority in key warfighting capabilities. Transform the
           force by exploiting the Revolution in Military Affairs, and reengineer the
           Department to achieve a 21st century infrastructure. (00-DoD-2)

           FY 2000 Subordinate Performance Goal 2.3: Streamline the DoD
           infrastructure by redesigning the Department’s support structure and
           pursuing business practice reforms. (00-DoD-2.3)

           FY 2000 Performance Measure 2.3.1: Percentage of the DoD Budget
           Spent on Infrastructure. (00-DoD-2.3.1)




                                       17
            FY 2000 Performance Measure 2.4.8: Qualitative Assessment of
            Defense Transportation. (00-DoD-2.4.8)

     DoD Functional Area Reform Goals. Most major DoD functional areas have
     also established performance improvement reform objectives and goals. This
     report pertains to achievement of the following objectives and goals in the
     Logistics Functional Area:

            •   Objective: Streamline logistics infrastructure.
                Goal: Implement most successful business practices. (LOG-3.1)

            •   Objective: Streamline logistics infrastructure.
                Goal: Increase outsourcing. (LOG-3.2)

     High-Risk Area. The General Accounting Office has identified several
     high-risk areas in DoD. This report provides coverage of the Military
     Personnel Management high-risk area.

     Audit Type, Dates, and Standards. We performed this program audit from
     September 1999 through November 2000 in accordance with auditing standards
     issued by the Comptroller General of the United States, as implemented by the
     Inspector General, DoD. We did not use computer-processed data for this
     audit.

     Contacts During the Audit. We visited or contacted individuals and
     organizations within DoD, the DoD contractors, the General Accounting Office,
     and the Technical Director, Quantitative Methods Division, Office of the
     Assistant Inspector General for Audit, DoD. Further details are available on
     request.

     Management Control Program. We did not review the management control
     program related to the overall audit objective.


Prior Coverage
     The General Accounting Office has issued three reports and the Office of the
     Inspector General, DoD, issued one report related to the DoD pilot program for
     shipment of personal property. General Accounting Office reports can be
     accessed over the Internet at http://www.gao.gov/. Office of the Inspector
     General, DoD, reports can be accessed over the Internet at
     http://www.dodig.osd.mil/audits/reports. Specific reports related to our audit
     are listed below.


General Accounting Office
     General Accounting Office Report No. NSIAD-99-129 (OSD Case No. 1800),
     “The Army’s Hunter Pilot Project is Inconclusive but Provides Lessons
     Learned,” June 1999




                                        18
     General Accounting Office Testimony Report No. T-NSIAD-99-106, “Defense
     Transportation Efforts to Improve DOD’s Personal Property Program,”
     March 18, 1999

     General Accounting Office Report No. NSIAD-98-99 (OSD Case No. 1556),
     “Defense Transportation – Status of U.S. Transportation Command Savings
     Initiatives,” May 1998


Inspector General
     Inspector General, DoD, Report No. D-2000-147, “DoD Pilot Program for
     Shipment of Personal Property – Military Traffic Management Command
     Reengineering DoD Personal Property Program Pilot,” June 12, 2000




                                     19
 Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology, and Logistics
  Assistant Deputy Under Secretary of Defense (Transportation Policy)
Under Secretary of Defense (Comptroller/Chief Financial Officer)
  Deputy Chief Financial Officer
  Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness

Department of the Army
Auditor General, Department of the Army
Commander, Military Traffic Management Command

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force

Unified Commands
Commander in Chief, U.S. Transportation Command

Non-Defense Federal Organizations
Office of Management and Budget




                                          20
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Management, Information, and Technology,
  Committee on Government Reform
House Subcommittee on National Security, Veterans Affairs, and International
  Relations, Committee on Government Reform




                                       21
United States Transportation Command
Comments




                     23
24
25
26
27
28
29
30
31
32
Audit Team Members
The Readiness and Logistics Support Directorate, Office of the Assistant Inspector
General for Auditing, DoD, prepared this report. Personnel of the Office of the
Inspector General, DoD, who contributed to the report are listed below.

Shelton R. Young
Robert M. Murrell
Frank C. Sonsini
Albert L. Putnam
Charles R. Johnson
Lynnell E. Hines
Charlisa D. Trahan
